No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

TEMOR S. SHARIFI,
Petitioner,
v.

THE UNITED STATES,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Carolyn L. Gaines
Counsel of Record
ATTORNEY AT LAW
22 West Rittenhouse Street, Suite 214
Philadelphia, Pennsylvania 19144
(267) 567-2001
cgaines2210@gmail.com
Counsel for Petitioner

Dated: June 1, 2021

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
Question Presented
Petitioner was born in Afghanistan. He
immigrated to the United States and became a United
States citizen. His siblings and other relatives
remained in Afghanistan and petitioner had real
property in Afghanistan.
Whether a United States citizen can be denied
his Fifth Amendment rights to just compensation for
property taken by the United States based upon
foreign law.

ii
Petitioner’s Certificate of Interested Persons and
Corporate Disclosure Statement
Pursuant to Federal Rules of Appellate
Procedure the following individual and entity have an
interest in this litigation, Petitioner and the United
States.
Statement of Related Cases
There are no related cases pending or
upcoming.

iii
Table of Contents

Page

Questions Presented .................................................... i
Petitioner’s Certificate of Interested Persons
and Corporate Disclosure Statement ......................... ii
Statement Of Related Cases ...................................... ii
Table of Contents .......................................................iii
Table of Authorities .................................................... v
Opinions Below ........................................................... 1
Petition for a Writ of Certiorari ................................. 1
Jurisdictional Statement ............................................ 1
Constitutional and Statutory
Provisions Involved..................................................... 1
Statement of the Case ................................................ 2
Reasons for Granting the Writ ................................... 5
Argument .................................................................... 5
Conclusion ................................................................. 11

iv
Appendix:
Opinion and Judgment of
The United States Court of Appeals
for the Federal Circuit
entered February 10, 2021 ............................... 1a
Opinion of
The United States Court
for Federal Claims
entered July 11, 2019................................... 17a
Judgment of
The United States Court
for Federal Claims
entered July 11, 2019................................... 41a

v
Table of Authorities

Page(s)

Cases
Thomas v. United States,
205 Ct. Cl. 623, 505 F.2d 1282 (1974) .......... 7-8
United States v. Dow,
357 U.S. 17, 78 S. Ct. 1039,
2 L. Ed. 2d 1109 (1958) .................................... 7
Walker v. Gish,
260 U.S. 447 (1923) ........................................ 10
Yaist v. United States,
656 F.2d 616 (Court of Claims 1981) .............. 6
Constitutional Provision
U.S. CONST. amend. V................................................. 1
Statutes
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 1491(a)(1) ................................................. 2

vi
OTHER AUTHORITIES
2 Nichols, Law of Eminent Domain § 5.21[1]
(rev. 3d ed. 1980) ........................................................ 7
Afghanistan Rule of Law Project,
USAID (2005) found on the Internet at
pdf.usaid.gov/pdf_docs/Pnadf590.pdf) .................. 8, 10

1
Opinions Below
The opinion of the United States Court of
Appeals for the Federal Circuit is unreported. The
opinion of the United States Court for Federal Claims
is unreported.
Petition for a Writ of Certiorari
COMES NOW, the petitioner, Temor S.
Sharifi, and hereby petitions this Honorable Court for
a writ of certiorari.
Jurisdictional Statement
The opinion and judgment of the United States
Court of Appeals for the Federal Circuit was entered
on February 10, 2021(App. 1a-16a). This Court has
jurisdiction pursuant to 28 U.S.C. Sec. 1254(1) and
the petition is timely filed.
Where there is a taking of private property for
public use, the owner’s claim for compensation is
based upon the Fifth Amendment of the Constitution
within the meaning of the Tucker Act and is therefore
within the jurisdiction of this Court to hear and
determine.
Constitutional and Statutory Provisions Involved
Fifth Amendment, United States Constitution
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service
in time of war or public danger; nor shall any

2
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law;
nor shall private property be taken for public
use, without just compensation.
Tucker Act 28 U.S.C. Sec. 1491(a)(1)
The United
States
Court
of
Federal
Claims shall have jurisdiction to render
judgment upon any claim against the United
States founded either upon the Constitution, or
any Act of Congress or any regulation of an
executive department, or upon any express or
implied contract with the United States, or for
liquidated or unliquidated damages in cases
not sounding in tort. For the purpose of this
paragraph, an express or implied contract with
the Army and Air Force Exchange Service,
Navy
Exchanges,
Marine
Corps
Exchanges, Coast
Guard Exchanges,
or
Exchange Councils of the National Aeronautics
and Space Administration shall be considered
an express or implied contract with the United
States.
Statement of the Case
Petitioner owned land in Afghanistan which he
inherited from his father and grandfather. The
original land lot consisted of approximately 38 jeribs
in Deh-e-Kowchay, Arghandab District, Kandahar in
Afghanistan. The real estate had been acquired by
Petitioner’s grandfather, Haji Muhammed Sharif,
approximately 100 years ago. Afghan government

3
records showed that the land on which Combat
Outpost Millet was built belonged to Haji Muhammed
Sharif, Petitioner’s grandfather as stated in
Petitioner’s Amended Complaint Exhibit A. This fact
was verified, signed and sealed by Arghandab
Governor, Shah Mohammad Ahmadi in Petitioner’s
Amended Complaint Exhibit A. The land was passed
down to Petitioner’s father, Haji Abdul Ghafur Khan.
Petitioner’s father is deceased and the land passed to
his heirs, Haji Abdul Latif, Abdul Razaq, Ahmad
Shah, Raa Gul, Ziwar Gul, Temor Shah Sharifi, Bibi
Masuma, and Bibi Jamila. The siblings subdivided
the land among themselves by an Inheritance
Agreement in April 2004, which was attached to
Petitioner’s Amended Complaint as Exhibits B and C.
In or about October 2010, Petitioner discovered that
the United States Army wanted to use his land. At
that time, Petitioner was contacted by his brother
Abdul Razaq who lived in Afghanistan, and was
advised by him that one Captain Reed of the United
States Army contacted him regarding leasing
Petitioner’s land. Petitioner’s brother, met with
Captain Reed in Captain Reed’s office on two
occasions to discuss the price for leasing the land, but
the matter was never resolved with Captain Reed and
Captain Reed never communicated with him again as
stated in Petitioner’s Amended Complaint.
Subsequently, Petitioner learned that houses
and trees on his property had been demolished by the
Army. Petitioner had leased his property to a tenant
who resided on the property and farmed the land prior
to the Army taking the land. Petitioner instructed his
brother not to return to the Army base for security
purposes and to protect his family.
Petitioner
contacted Captain Reed directly by telephone and

4
stated that he would provide proof of ownership of the
land, which he did. That documentation was later
verified by the District Governor for Arghandab
District. Eventually, Petitioner discovered that the
Army used his land to construct Combat Outpost
Millet in Deh-e-Kowchay, Arghandab District,
Kandahar in Afghanistan. Combat Outpost Millet
was built entirely on Petitioner’s property and he was
not compensated for the use of his land as stated in
the Amended Complaint.
Petitioner instituted this action against the
United States for an unconstitutional taking of
property by filing a complaint on August 31, 2016.
The United States then filed a Motion for a More
Definite Statement on October 24, 2016. The Court
granted defendant’s motion. Following that order,
Petitioner filed an amended complaint on February
15, 2017. Thereafter, the defendant filed a motion to
dismiss on April 10, 2017. The Court of Federal
Claims granted defendant’s motion to dismiss and
plaintiffs amended complaint was dismissed on July
11, 2019. Whereupon, Petitioner filed an appeal.
The appellate court affirmed the lower court’s
decision. The Federal Circuit Court stated that the
government records attached to petitioner’s amended
complaint do not constitute proof of land ownership
under Afghan law because according to the
government’s expert on Afghan law provincial and
district governors are not authorized by the laws of
Afghanistan to look into civil claims like property law
issues regarding ownership and inheritance.

5
Reasons for Granting the Writ
The courts below erred in denying Petitioner
his constitutional rights as a United States citizen
based on Afghan law. Afghan law is not superior to
the United States Constitution especially for United
States citizens. Because Petitioner is a United States
citizen, he is entitled to just compensation for the land
taken by the United States to build Combat Outpost
Millet in Afghanistan. It does not matter whether the
land was situated in Afghanistan or the United
States. Where there was a taking by the United
States of land that was owned by a United States
citizen that citizen is entitled to just compensation.
Argument
Petitioner owned land in Afghanistan which he
inherited from his father. The original land lot
consisted of approximately 38 jeribs in Deh-eKowchay, Arghandab District, Kandahar in
Afghanistan. The real estate had been acquired by
Petitioner’s grandfather, Haji Muhammed Sharif,
approximately 100 years ago. Afghan government
records showed that the land on which Combat
Outpost Millet was built belonged to Haji Muhammed
Sharif, Petitioner’s grandfather. This fact was
verified, signed and sealed by Arghandab Governor,
Shah Mohammad Ahmadi is in the Amended
Complaint Exhibit A. The land was passed down to
Petitioner’s father, Haji Abdul Ghafur Khan.
Petitioner’s father is deceased and the land passed to
his heirs, Haji Abdul Latif, Abdul Razaq, Ahmad
Shah, Raa Gul, Ziwar Gul, Temor Shah Sharifi, Bibi

6
Masuma, and Bibi Jamila. Pursuant to custom, the
siblings subdivided the land among themselves by
agreement in April 2004.
The Inheritance Agreement along with the
diagram of Petitioner’s plot of land was provided to
the Army in 2011. At that time, Petitioner clearly
advised the U.S. military personnel that he owned the
property where COP Millet was situated. The fact
that the Arghandab Governor, Shah Mohammad
Ahmadi later confirmed that the property on which
COP Millet was situated belonged to Petitioner’s
grandfather Haji Muhammed Sharif was sufficient to
establish that Petitioner had a vested interest in the
property on which COP Millet was built.
If this was merely a case of attempted fraud as
Major Reed tries to imply, there would have been no
reason for Petitioner’s brother to contact Petitioner
who was not in Afghanistan but half a world away.
Additionally, Major Reed admits meeting with two
individuals about the land, which corroborates
Petitioner’s claim that one Capt. Reed met with his
brother.
This is comparable to the situation in Yaist v.
United States, 656 F.2d 616, 623 (Court of Claims
1981), where the lower court recognized that under
Florida law the courts have held that the equitable
owner gets the benefit or loss of condemnation or
eminent domain. In that case the plaintiff did not
record his deed or Agreements for Deed and was still
held to be the equitable owner of the property and as
such was entitled to just compensation from the
government. Furthermore, the plaintiff’s documents

7
in that case were still considered valid even though
they were not recorded until after the government
had entered into an agreement to purchase the land.
The concern regarding the recording of the documents
was whether or not the government had notice of the
prior sale of part of the same land that was being
purchased by the government. The Court concluded
that the government had constructive notice of
another party’s possible interest in the land due to
certain irregularities in the transaction. In this case
too, there were irregularities in the transaction,
including but not limited to, no signature of a
landowner on the documents and the statement by a
government official of his intent to purchase the
property in the future. Moreover, the heirs made an
official request of the government to identify the
property and the government gave an official
response identifying Petitioner’s grandfather as being
the registered owner of the land on which the United
States outposts was situated.
Here, the Petitioner has been the equitable
owner since his father’s death as an heir to his
father’s property, and both legal and equitable owner
since 2004 when the heirs entered into an inheritance
agreement. The inheritance agreement was valid
from the date of its execution in 2004 even though it
was not registered with the government until a later
date. See also 2 Nichols, Law of Eminent Domain §
5.21[1] (rev. 3d ed. 1980). This proposition is
consistent with federal law which has established
that compensation can be paid only to the person who
owns or has an interest in the property at the time it
is taken. United States v. Dow, 357 U.S. 17, 20-21, 78
S. Ct. 1039, 1043-1044, 2 L. Ed. 2d 1109
(1958); Thomas v. United States, 205 Ct. Cl. 623, 631-

8
32, 505 F.2d 1282, 1286 (1974). Indeed, the defendant
had actual notice that the Afghan government did not
own the land since missing from the License for
Construction was the signature of the “Owner of
Land.” The line for the “Owner of Land” to sign the
document was blank. . To be sure, the language of the
License for Construction specifically states in the
introductory paragraph of that agreement that the
Arghandab Governor wants to buy the very same
property, thus, giving the defendant actual notice
that the Afghan government did not own the property.
Contrary to the defendant’s position, Petitioner’s
deceased grandfather does not continue to own the
land even though the property is still in his name. The
inheritance agreement with Petitioner’s name has
been registered with the government.
The United States Agency for International
Development (USAID) authorized and contracted a
study of law in Afghanistan. The results were
published in an article titled Afghanistan Rule of Law
Project, USAID (2005) (this article can be found on the
Internet at pdf.usaid.gov/pdf_docs/Pnadf590.pdf).
This extensive study examined all types and areas of
law in Afghanistan. Among its findings it concluded:
Although recent general analyses have
approached Afghanistan as a recovering failed
state and society, a system of governance has
not been entirely lacking throughout its years
of crisis. A network of local institutions outside
the purview of the state provided some system
of governance, even as the state has collapsed
or struggled under the weight of wars and
political violence. This traditional network of
civil society developed over centuries, and to

9
some degree it has always been at least as
strong as the formal institutions of
government. Supra at p.3
The report went on to define and explain the
traditional system of law as follows:
The “informal justice sector” or “customary law
sector” covers a wide variety of cluster of norms
and practices, often uncodified and orally
transmitted, usually combined together in
varying mixes. This includes customary law
(such as the Pashtun code known as
“Pashtunwali”), local understanding of Islamic
legal traditions (including their sectarian
variants
and
their
particular
ethnic
manifestations), and even some modern laws.
Supra at p.3
This independent and unbiased report found the
informal or customary law sector to be at least as
strong as the formal institutions of the government.
One reason for this conclusion has been stated, in
pertinent part:
The informal process thus operates relatively
unhampered by logistical or budgetary
constraints. The sustainability of the system
has helped it to evolve over time and survive
during years of political crisis and the collapse
of the central authority and the absence of its
legal system. Supra at p.30
Thus, it was natural for Petitioner and the
other heirs to follow the customs in the area and enter
into an inheritance agreement since there was no
dispute among the heirs. The widespread use and

10
acceptance of customary practices in Afghanistan has
made the informal practices just as valid as the
formal practices. Accordingly, the Petitioner’s
inheritance agreement was a valid, legal, and
acceptable distribution of inherited property among
the descendents. Indeed, as stated in the Afghanistan
Rule of Law Project:
Marriages
and
inheritance,
especially
throughout rural Afghanistan, occurs based on
the
traditional
doctrine
concept
of
“trusteeship”. Marriage agreements often take
place without any registration to a government
office; at the time of agreement or
disagreement, it solely relies on the support of
family network.
Supra at p.33.
In this case, the Petitioner legally established
his equitable and legal ownership to the subject
property, as well as his property interests through the
inheritance agreement.
Furthermore, it was found that resolving land
disputes through the informal system rather than the
formal system utilizing the courts was not limited to
rural areas of Afghanistan because “ [t]he data from
Nangarhar, Logar, Herat, Jawzjan, and Kabul
suggest that the Jirga remains the most popular
process for resolving property disputes.” Supra at
p.38.
In Walker v. Gish, 260 U.S. 447, 450 (1923), the
Supreme Court recognized the validity of “a custom
[that] had grown up” thus, where Petitioner and his
family follow custom with regard to their

11
grandfather’s property, such custom should not be
ignored
or
disregarded.
Finally,
Petitioner
sufficiently identified his property. Thus, there is no
legal basis for denying petitioner his Fifth
Amendment right to just compensation in this
situation where he clearly established his legal rights
and equitable interests in the land taken by the
United States under United States law.
Conclusion
For the foregoing reasons, the Court should
grant the petition for writ of certiorari.
Respectfully submitted,
/s/ Carolyn L. Gaines

Counsel of Record
ATTORNEY AT LAW
22 West Rittenhouse Street, Suite 214
Philadelphia, Pennsylvania 19144
(267) 567-2001
cgaines2210@gmail.com
Counsel for Petitioner

Dated: June 11, 2021

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Opinion and Judgment of
The United States Court of Appeals
for the Federal Circuit
entered February 10, 2021 ............................... 1a
Opinion of
The United States Court
for Federal Claims
entered July 11, 2019................................... 17a
Judgment of
The United States Court
for Federal Claims
entered July 11, 2019................................... 41a

1a
ENTERED FEBRUARY 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
TEMOR S. SHARIFI,
Plaintiff – Appellant
v.
UNITED STATES,
Defendant – Appellee

2019-2382
Appeal from the United States Court of Federal
Claims in No. 1:16-cv-01090-BAF,
Senior Judge Bohdan A. Futey.

Decided: February 10, 2021
CAROLYN L. GAINES, Philadelphia, PA, argued
for plaintiff-appellant.
JOHN LUTHER SMELTZER, Environment and
Natural
Resources
Division,
United
States
Department of Justice, Washington, DC, argued for
defendant-appellee. Also represented by JEFFREY B.
CLARK, ERIC GRANT, ERIKA KRANZ, EDWARD CARLOS
THOMAS.

2a
Before O’MALLEY, WALLACH, and TARANTO,
Circuit Judges.
O’MALLEY, Circuit Judge.
Temor S. Sharifi appeals from a decision of the
United States Court of Federal Claims (“Claims
Court”) dismissing his claims against the United
States for failing to state a claim upon which relief can
be granted pursuant to Rule 12(b)(6) of the Rules of
the United States Court of Federal Claims (“RCFC”).
Sharifi v. United States, 143 Fed. Cl. 806 (2019). For
the reasons explained below, we affirm.
I. BACKGROUND
This appeal concerns land in Afghanistan that
Sharifi alleges the U.S. Army took when it built
Combat Outpost Millet (“COP Millet”) in 2010. After
Sharifi filed a complaint with the Department of
Defense and received no response, he brought the
underlying Fifth Amendment takings claim against
the government in the Claims Court.
According to Sharifi’s original complaint,
approximately 100 years ago, Sharifi’s grandfather
acquired a land lot in Deh-e-Kowchay, Arghandab
District, Kandahar in Afghanistan. J.A. 25–26, ¶¶
4–5. 11 The land then passed to Sharifi’s father, and
when Sharifi’s father died, Sharifi and his siblings
subdivided the land among themselves. J.A. 26, ¶ 5.
Sharifi leased his property to a tenant, who used the
land for farming.
J.A.” refers to the Joint Appendix, available at Dkt.
No. 37. “S.A.” refers to the government’s Supplemental
Appendix, available at Dkt. No. 31.
1

3a
Around October 2010, then-Captain Walter A.
Reed of the U.S. Army spoke twice with one of
Sharifi’s siblings about leasing Sharifi’s land. 2 Sharifi
later learned that the Army had demolished houses
and trees on his property and constructed COP Millet
on his land and that of his neighbors. J.A. 26–27, ¶¶
8, 13. At some point, Sharifi also directly contacted
Captain Reed to provide proof of ownership of the land
in the form of documentation that “had been verified
by the District Governor for Arghandab District.” J.A.
26, ¶ 11.
In response to Sharifi’s complaint, the
government moved for a more definite statement.
The government asserted that Sharifi’s complaint
was “vague and ambiguous” because it did not
specifically identify the property interest that the
United States allegedly took, as required by Rule 9(i)
of the RCFC. J.A. 30. In particular, the government
claimed that Sharifi had not provided a legal
description of the land, a deed, or other document that
would allow the United States to identify the location
of the land lot that Sharifi’s grandfather acquired.
J.A. 30. And Sharifi had not provided a legal
description of his property interest, official
documentation describing the portion of property conveyed to him, or a sufficient description of where his
portion of the land lot is located. J.A. 30–31.

The government attached a declaration by now- Major
Reed as an exhibit to its motion to dismiss, contesting Sharifi’s
account of these October 2010 conversations. The Claims Court
declined to wade into this factual dispute and accepted Sharifi’s
allegations about the conversations as true. Sharifi, 143 Fed. Cl.
at 809 n.4
2

4a
The Claims Court granted the government’s
motion, instructing Sharifi to file an amended
complaint “specifically identifying the land that he
owns” that the United States took. Sharifi v. United
States, No. 16-1090L, 2017 WL 461554, at *1 (Fed. Cl.
Feb. 1, 2017). The Claims Court explained that
Sharifi could either attach as an exhibit the proof of
ownership he allegedly provided Captain Reed or
describe in some other way the specific location of the
land that he (and not his neighbors) owned. Id.
According to the Claims Court, that Afghanistan had
its own customs and practices regarding the
formalities employed in recognizing property
ownership “should not prevent [Sharifi] from
providing more specific information concerning the
location of his land.” Id.
In his amended complaint, Sharifi alleged that
government records, verified by the District Governor
of Arghandab, showed that his grandfather owned the
land on which the Army built COP Millet. J.A. 35, ¶
5. Ownership of the land passed to Sharifi and his
siblings, who subdivided the land by a 2004
inheritance agreement. J.A. 35, ¶ 6. Sharifi no longer
alleged that the Army took his neighbor’s land to
construct COP Millet. Sharifi attached three exhibits
to his amended complaint. Exhibit A consists of the
Afghan government records allegedly showing that
Sharifi’s grandfather owned the taken land. These
records are letters sent to and received from Sharifi
and his siblings, the District Governor of Arghandab,
and the Governor of Kandahar. One letter from the
District Governor of Arghandab to the Governor of
Kandahar reads, “I have verified all the ownership

5a
documents and the land belongs to [Sharifi’s
grandfather].”3 J.A. 46 (Sharifi’s translation).
Exhibit B is the 2004 inheritance agreement that
subdivided the land lot of Sharifi’s grandfather among
Sharifi and his siblings. And Exhibit C is a letter
exchange with the District Governor of Arghandab, in
which Sharifi requested verification that he owned
the taken land, and the District Governor verified
Sharifi’s ownership. Exhibit C also includes a
drawing of the land Sharifi and his siblings allegedly
own.
The government moved to dismiss Sharifi’s
amended complaint for failure to state a claim,
pursuant to Rule 12(b)(6) of the RCFC.4 The
government argued that, inter alia, Sharifi had not
established a valid property interest in the allegedly
taken land because Sharifi’s government records were
inadequate to support a claim of ownership under
Afghan law. The government also attached six
declarations to its motion to dismiss, including

3 The government also submitted a translation of this
letter:
“The land of the Late [Sharifi’s grandfather] is
confirmed.” S.A. 89. We need not determine which translation
is more accurate because we reach the same result under either
translation.

The government also moved to dismiss for lack of
subject matter jurisdiction under Rule 12(b)(1) of the RCFC. The
Claims Court only analyzed the government’s Rule 12(b)(6)
motion. Sharifi, 143 Fed. Cl. at 811–12, 817. On appeal, the
government does not argue that the Claims Court lacked subject
matter jurisdiction over Sharifi’s claim. We see no basis for
holding the Claims Court lacked subject matter jurisdiction
either. See 28 U.S.C. § 1491(a).
4

6a
several witness declarations
declaration on Afghan law.

and

an

expert

The Claims Court agreed with the government,
dismissing Sharifi’s amended complaint for failure to
show a cognizable property interest. Sharifi, 143 Fed.
Cl. at 817. The court first determined which types of
documents Afghan law recognized as proof of land
ownership, mindful that it is “very difficult to
determine . . . the legitimate owners of land and
property in Afghanistan,” in part because “for much
of Afghanistan’s recent history people have had no
alternative but to use customary documents to
validate land and property transfers as there has
been no functioning official judicial system.” Id. at
816 (internal quotations and citation omitted). The
court then adopted the Law of Land Management
Affairs, revised by the Taliban in 2000 and by the
Afghan government in 2008, which recognized seven
types of documents that may serve as proof of land
ownership. Id. at 816–17. Because neither of the
letters from the District Governor of Arghandab
verifying ownership fit into any of these seven
categories, the court held that Sharifi’s letters did not
constitute proof of land ownership under the laws of
Afghanistan. Id. at 817.
The Claims Court acknowledged that “formal
registration and titling has never been widespread” in
Afghanistan. Id. (internal quotations and citation
omitted). But the court concluded that, for the most
part, Afghan law only recognizes land ownership
based on formal documents. Id. That certain
communities rarely follow Afghan property law and
instead use informal customs to facilitate land
transactions “puts [Sharifi] in an unfortunate bind,

7a
but not the sort of bind this Court is empowered to
resolve by disregarding those laws entirely.” Id.
Because Sharifi had not shown that his grandfather
owned the allegedly taken land, the court did not
address whether the 2004 inheritance agreement
validly transferred the property interest of Sharifi’s
grandfather to Sharifi. See id.
On July 11, 2019, the Claims Court entered
judgment dismissing Sharifi’s amended complaint.
Sharifi timely appealed to this court. We have
jurisdiction pursuant to 28 U.S.C. § 1295(a)(3).
II. DISCUSSION
A. Standard of Review
We review the grant of a motion to dismiss de
novo. Athey v. United States, 908 F.3d 696, 705 (Fed.
Cir. 2018). To survive a motion to dismiss, a
complaint must contain sufficient facts, accepted as
true, to “state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570 (2007)). The tenet that a court must accept as
true all allegations in a complaint is inapplicable to
legal conclusions, however. Id.
B. The Claims Court Did Not Convert the
Government’s Motion to Dismiss to a
Motion for Summary Judgment
Before we reach the merits of Sharifi’s appeal, we
first address the government’s contention that we
should review the Claims Court’s decision as a grant
of summary judgment. According to the government,
the Claims Court’s “consideration of matters outside

8a
the pleadings essentially transformed the motion to
dismiss into a motion for summary judgment.”
Appellee’s Br. 17. The government relies on Rule
12(d) of the RCFC, which provides:
If, on a motion under RCFC 12(b)(6)
or 12(c), matters outside the pleadings
are presented to and not excluded by the
court, the motion must be treated as one
for summary judgment under RCFC 56.
All parties must be given a reasonable
opportunity to present all the material
that is pertinent to the motion.
According to the government, the exhibits that
Sharifi attached to his amended complaint, as well as
the declarations and exhibits attached to Sharifi’s
briefing of the Rule 12(b)(6) motion, constituted
evidence that converted the government’s motion to
dismiss to a motion for summary judgment.
We disagree. The exhibits that Sharifi attached
to his amended complaint are not “matters outside
the pleadings” that require the Claims Court to treat
a Rule 12(b)(6) motion as a motion for summary
judgment. The Claims Court also did not rely on
Sharifi’s declarations and other exhibits attached to
his briefing to dismiss his amended complaint for
failure to state a claim. See Sharifi, 143 Fed. Cl. at
816–17; see also Easter v. United States, 575 F.3d
1332, 1335 (Fed. Cir. 2009) (“Whether to accept extrapleading matter on a motion for judgment on the
pleadings and to treat the motion as one for summary
judgment is within the trial court’s discretion.”
(emphasis added)).

9a
Indeed, the Claims Court consistently applied the
correct standard to review a motion to dismiss—
accepting all well-pleaded factual allegations as true
and drawing all reasonable inferences in favor of
Sharifi. See Sharifi, 143 Fed. Cl. at 809 n.4 (“At this
early stage, the Court may not wade into these factual
disputes and accepts plaintiff’s allegation that
Commander Reed expressed some interest in leasing
the land from its owner.”); id. at 813 (“The plaintiff
has alleged facts that, if proven, would show the
United States was involved in the construction of
COP Millet to a sufficient degree to find a Fifth
Amendment taking.”); id. at 814 (“[The government’s]
argument may carry the day at summary judgment
but, at this stage, would require fact-finding that is
inappropriate in evaluating a motion to dismiss.”); id.
at 816 (accepting “at this stage as true” the alleged
fact that the District Governor of Arghandab verified
that Sharifi’s grandfather owned the land in
question); see also id. at 817 (granting the
government’s motion to dismiss).
Nor did the court’s determination of Afghan law
governing land ownership convert the government’s
motion to dismiss into a motion for summary
judgment. Rule 44.1 of the RCFC broadly permits the
Claims Court to consider any relevant material to
determine foreign law:
A party who intends to raise an issue
about a foreign country’s law must give
notice by a pleading or other writing. In
determining foreign law, the court may
consider any relevant material or source,
including testimony, whether or not
submitted by a party or admissible

10a
under the Federal Rules of Evidence.
The court’s determination must be
treated as a ruling on a question of law.
Rule 44.1 of the RCFC conforms to Rule 44.1 of the
Federal Rules of Civil Procedure, which “provides
flexible procedures for presenting and utilizing
material on issues of foreign law by which a sound
result can be achieved with fairness to the parties.”
See Fed. R. Civ. P. 44.1 note (1966).
Under Rule 44.1, a court may “engage in its own
research and consider any relevant material” it finds.
See id. (“The court may have at its disposal better
foreign law materials than counsel have presented, or
may wish to reexamine and amplify material that has
been presented by counsel in partisan fashion or in
insufficient detail.”). There is no requirement that a
court give formal notice to the parties of its intention
to engage in its own research on an issue of foreign
law. See id. (“To require, however, that the court give
formal notice from time to time as it proceeds with its
study of the foreign law would add an element of
undesirable rigidity to the procedure for determining
issues of foreign law.”).
Here, the Claims Court followed Rule 44.1 when
it considered its own research and testimony from
both parties about Afghan law and the prevalence of
informal customs. Its reliance on these materials to
determine a question of law did not convert the
government’s motion to a motion for summary
judgment. Accordingly, we review the Claims Court’s
decision de novo as a grant of a motion to dismiss, not
a motion for summary judgment.

11a
C. The Claims Court Correctly Dismissed Sharifi’s
Amended Complaint for Failure to State a Claim
Turning to the merits, the Fifth Amendment
provides that “private property” may not be “taken for
public use, without just compensation.” U.S. Const.
amend. V. To claim a Fifth Amendment taking, a
plaintiff must show a “cognizable property interest.”
Alimanestianu v. United States, 888 F.3d 1374, 1380
(Fed Cir. 2018). The Constitution does not create or
define the scope of property interests compensable
under the Fifth Amendment. Maritrans Inc. v.
United States, 342 F.3d 1344, 1352 (Fed. Cir. 2003).
“Instead, ‘existing rules and understandings’ and
‘background principles’ derived from an independent
source, such as state, federal, or common law, define
the dimensions of the requisite property rights for
purposes of establishing a cognizable taking.” Id.
(quoting Lucas v. S.C. Coastal Council, 505 U.S. 1003,
1030 (1992)).
First, the independent source of law relevant here
is the law of Afghanistan. Neither party disputes the
Claims Court’s determination of the civil law
governing land ownership in Afghanistan. Oral Arg.
at 11:27–13:20, http://oralarguments.cafc.uscourts.
gov/default.aspx?fl=19-2382_11062020.mp3. Based
on the government’s expert declaration and the
court’s own research, at least as of 2008, seven types
of documents may serve as proof of land ownership:
(1) documents of a legal court; (2) a decree issued by
the emirate and the prime ministry, if registered; (3)
tax receipts; (4) proof of water rights; (5) customary
deeds from before 1975, witnessed before 1978; (6)
registered title documents; or (7) title documents

12a
obtained by court order. Sharifi, 143 Fed. Cl. at 816–
17.
We agree with the Claims Court that the
government records attached to Sharifi’s amended
complaint as Exhibit A do not constitute proof of land
ownership under Afghan law. As the government’s
expert on Afghan law explained, “provincial and
district governors are not authorized by the laws of
Afghanistan to look into civil claims,” like property
law issues regarding ownership and inheritance, “or
[to] issue instruction for that purpose.” S.A. 75, ¶ 6(c),
(f). In his opening brief, Sharifi does not identify the
type of proof of ownership under which the
government records fall. Without explanation, Sharifi
characterizes these records as “sufficient” to establish
Sharifi’s vested interest in the allegedly taken land.
Appellant’s Br. 6. When asked at oral argument to
identify which of the seven types of documents Sharifi
pled he could provide, Sharifi also did not mention the
government records. We therefore find Sharifi’s
factual allegations about these records insufficient to
show he or his grandfather had a cognizable property
interest under Afghan law in the allegedly taken land.
We also agree with the Claims Court that we need
not address the 2004 inheritance agreement because
the amended complaint has not shown a cognizable
property interest. The 2004 inheritance agreement is
inadequate to show that Sharifi owned the allegedly
taken land because there is no document recognized
by Afghan law as proof of land ownership that shows
the decedent—here, Sharifi’s father—owned the land
Sharifi inherited. Oral Arg. at 21:23–22:06.

13a
Nevertheless, at oral argument, Sharifi asserted
that the 2004 inheritance agreement constitutes proof
of land ownership in the form of a registered title
document because the agreement attached a diagram
of the plot to the agreement and because Sharifi
allegedly registered the agreement. Oral Arg. at 7:32–
9:04. We are unpersuaded that Sharifi alleged
sufficient factual allegations about the 2004
inheritance agreement to show that it is a proof of
ownership recognized under Afghan law. Indeed, the
agreement is “registered” only insofar as the District
Governor of Arghandab verified the agreement at
some point after Sharifi and his siblings executed the
agreement. But under Afghan law, the District
Governor is not authorized to certify inheritance
agreements; only courts are. S.A. 76, ¶ 6(i).
Sharifi’s reliance on Yaist v. United States, 656
F.2d 616 (Ct. Cl. 1981), is misplaced. In Yaist, the
Court of Claims considered whether a plaintiff was
entitled to just compensation for the taking of
property to which the plaintiff allegedly held
equitable title. Id. at 622–23. The Yaist court found
equitable title under Florida law, applying the
doctrine of equitable conversion.
Id.
Yaist is
inapplicable here because Afghan law, not Florida
law, defines the dimensions of the requisite property
rights for purposes of establishing a cognizable
taking. See Maritrans, 342 F.3d at 1352. And Sharifi
provides no support for determining that Afghan law
recognizes a doctrine of equitable conversion.
Finally, Sharifi contends that we should recognize
his property interest based on customary law in
Afghanistan, i.e., informal customs. Sharifi relies on
a 2005 field study by the United States Agency for

14a
International Development (“USAID study”),5 which
discussed the use of customary law in Afghanistan.
But as Sharifi admitted to the Claims Court,
Kandahar Province and Arghandab District were not
among the areas surveyed, and the study did not
suggest an understanding that those areas followed
customary law and traditions. S.A. 103 (8:4–14).
Sharifi also conceded at oral argument that he had no
reason to doubt that the civil law governing land
ownership is currently applicable and has been
applicable since 2008, two years before the alleged
taking. See Oral Arg. at 12:01–13:20. On this record,
we hold that customary law in Afghanistan cannot
establish a cognizable property interest on which
Sharifi can base his takings claim.
In sum, we find that the government records
attached to Sharifi’s amended complaint as Exhibit A
and the 2004 inheritance agreement do not constitute
proof of land ownership under the laws of
Afghanistan. Even accepting as true all factual
allegations in Sharifi’s amended complaint, the
amended complaint does not contain sufficient facts
to state a plausible takings claim. See Ashcroft, 556
U.S. at 678.

Afghanistan Rule of Law Project: Field Study of
Informal
and
Customary
Justice
in
Afghanistan
and Recommendations on Improving Access to Justice and
Relations Between Formal Courts and Informal Bodies,
U.S.
Agency
for
Int’l
Dev.
(Apr.
30,
2005),
https://pdf.usaid.gov/pdf_docs/Pnadf590.pdf.
5

15a
III. CONCLUSION
For these reasons,6 the Claims Court’s decision
dismissing Sharifi’s amended complaint is affirmed.
AFFIRMED
COSTS
No costs.

We do not reach the government’s alternative
arguments. Because we agree with the Claims Court that
Sharifi’s amended complaint did not plead sufficient facts to
show a cognizable property interest in the allegedly taken land,
we vacate the remainder of the Claims Court’s opinion.
6

16a
ENTERED FEBRUARY 10, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
TEMOR S. SHARIFI,
Plaintiff – Appellant
v.
UNITED STATES,
Defendant – Appellee

2019-2382
Appeal from the United States Court of Federal
Claims in No. 1:16-cv-01090-BAF,
Senior Judge Bohdan A. Futey.

JUDGMENT
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT
February 10, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

17a
ENTERED: July 11, 2019
IN THE UNITED STATES COURT
OF FEDERAL CLAIMS
No. 16-1090
)
TEMOR S. SHARIFI,
Plaintiff,

v.

) Takings Clause:
) Act of State
) Doctrine; Real
) Property
) Cognizable
) Property Interests;
) Foreign Law.

THE UNITED STATES,

)

Defendant.

)
)

Carolyn
plaintiff.

L.

Gaines,

Philadelphia,

PA, for

Edward Carlos Thomas, IV, U.S. Department of
Justice, Environment and Natural Resources
Division, Washington, D.C., for defendant.
OPINION
FUTEY, Senior Judge
This case is before the Court on defendant’s
motion to dismiss plaintiff’s amended complaint (“Am.
Compl.”), which was filed on February 15, 2017,
pursuant to rules 12(b)(1) and 12(b)(6) of the Rules of

18a
the Court of Federal Claims (“RCFC”). Defendant filed
its motion on April 10, 2017. Plaintiff filed a response
on May 11, 2017, and the defendant filed its reply on
May 30, 2017. After hearing oral argument on the
motion, the Court ordered supplemental briefing.
Defendant filed its supplemental brief on October 24,
2017, and the plaintiff filed a response on November
21, 2017.
The plaintiff, a United States citizen, seeks
damages for a taking of real property by the United
States in Afghanistan. In its motion to dismiss, the
defendant makes four arguments: First, the defendant
argues that the United States may not be held liable
for a taking carried out by an international military
coalition. Second, the defendant argues that plaintiff’s
lawsuit is barred by the act of state doctrine. Third,
the defendant urges dismissal because plaintiff has
failed to “identify the specific property interest alleged
to have been taken by the United States” as required
by RCFC 9(i). Lastly, the defendant argues that
plaintiff has not shown he is the owner of the land.
The matter is now ripe for disposition.
I.

BACKGROUND
a.

Factual Background1

The amended complaint alleges as follows:
Approximately 100 years ago, plaintiff’s grandfather—
Specific dates for events are provided, except where the
amended complaint specifies only to the nearest month and no
primary document bearing the applicable date has been filed. See,
e.g., Am. Compl. ¶ 16.
1

19a
Haji Mohammad Sharif—acquired 38 jeribs2 in Deh-eKowchay, Arghandab District, Kandahar in
Afghanistan. ECF No. 10 (“Am. Compl.”) ¶¶ 4–5.
Plaintiff’s grandfather then allegedly passed the land
down to plaintiff’s father—Haji Abdul Ghafur Khan.
Id. ¶ 6. In April 2004, after plaintiff’s father died,
plaintiff and his siblings entered into an agreement to
subdivide the land. Id.; see also id. Ex. A (inheritance
agreement).3Plaintiff then leased his land to a tenant,
who used it for farming. Id. ¶ 10.
In October 2010, Walter A. Reed—a United
States Company Commander—recommended that the
United States Army (“U.S. Army”) establish a
command outpost near Deh-e-Kowchay. Gov’t Ex. 3.
Commander Reed investigated ownership of the field
where the U.S. Army wished to construct an outpost,
but the identity of the owner or owners was
“unknown.” Id. Plaintiff alleges that Commander Reed
then met twice with plaintiff’s brother to discuss the
possibility of leasing plaintiff’s land. Am. Compl. ¶¶ 7–
8.4 At some point, plaintiff instructed his brother not
2 A jerib is a “unit of land measurement equivalent to
2,000 square metres or one fifth of a hectare.” Liz Alden Wily,
Land, People, and the State in Afghanistan 2002–2012, Afg. Res.
& Evaluation Unit, at 2 (Feb. 2013).
3 Defendant disputes the legal effectiveness of plaintiff’s
inheritance agreement as well as his proof of land ownership. See
Gov’t Ex. 6. The Court addresses those arguments later in this
Opinion.

Then-Commander (now-Major) Reed remembers these
conversations differently. According to Commander Reed, he
communicated to two individuals “that [he] had no authority to
bind the U.S. government in either a lease or an offer to purchase
the land.” Gov’t Ex. 3. Commander Reed also informed his
4

20a
to return to the U.S. Army base where he had met with
Commander Reed “for security purposes and to protect
his family.” Id. ¶ 11.
On October 18, 2010, the government of
Afghanistan granted the U.S. Army a one-year
“License for Construction” (hereinafter “license” or
“license agreement”) to build a combat outpost. Gov’t
Ex. 3. The license applies to land “outside the village
of Deh-e-Kowchay . . . described in Exhibit A and
depicted on the map at Exhibit B.”5 Id. The license
“warrants that [the government of Afghanistan] is the
rightful and legal owner of the herein described
premises.” Id. The license also provides that, “If the
title of the [government of Afghanistan] shall fail, or if
it be discovered that the [government of Afghanistan]
did not have authority to issue this License the
[United States] shall have the option to terminate this
Right-of-Entry and the [government of Afghanistan]
agrees to indemnify the [United States] by reason of
such failure.” Id.

counterparties that “they needed to prove to the proper official in
the Arghandab District government that they owned the land
because the land was committed to use by U.S. and Afghan forces
by the Arghandab District government.” Id. At this early stage,
the Court may not wade into these factual disputes and accepts
plaintiff’s allegation that Commander Reed expressed some
interest in leasing the land from its owner. See Athey v. United
States, 908 F.3d 696, 705 (Fed. Cir. 2018) (“The court must accept
well-pleaded factual allegations as true and must draw all
reasonable inferences in favor of the claimant.”).
5 The defendant did not include either “Exhibit A” or
“Exhibit B” in its submissions to this Court, so the precise
geographic scope of the license is unclear.

21a
The license also appears to contemplate a future
acquisition of additional land by the District Governor
of Arghandab (“District Governor”). Id. It goes on to
state, “Upon purchase we will move the necessary
establishments to new boundary line.” Id. Whether
such an acquisition—or corresponding adjustment in
boundary lines—ever took place is unclear.
The signature block of the license indicates that
one individual signed on behalf of the “Government of
the Islamic Republic of Afghanistan,” and another
individual signed on behalf of “The United States of
America.” Id. A third line, labeled “Owner of Land,” is
blank. Id.
In October and November 2010, the U.S. Army,
the Afghan National Army, the Afghan National
Police, private contractors, and other elements of the
International Security Assistance Force (“ISAF”)6
built Combat Outpost Millet (“COP Millet”). Gov’t Ex.
3.
The plaintiff later discovered that the U.S. Army
had demolished houses and trees to construct COP
Millet. Am. Compl. ¶¶ 9, 14. He telephoned
Commander Reed with the intent to provide proof of
ownership. Id. ¶ 12. Plaintiff also spoke with other
U.S. Army personnel. Id. ¶ 13.

The United Nations Security Council formed the ISAF
on December 20, 2001 “to assist the Afghan Interim Authority in
the maintenance of security in Kabul and its surrounding areas,
so that the Afghan Interim Authority as well as the personnel of
the United Nations can operate in a secure environment.” U.N.
Docs. S/RES/1386 (Dec. 20, 2001).
6

22a
On December 7, 2010, plaintiff wrote a letter to
the Governor of Kandahar (“Governor”) requesting
compensation for the U.S. Army’s occupation of his
land. Id. Ex. A. On January 3, 2011, the Governor
referred plaintiff’s request to the District Governor. Id.
The District Governor responded by verifying that
Haji Mohammad Sherif (plaintiff’s grandfather)
owned the land in question. Id.
On June 3, 2012, plaintiff wrote a letter to the
District Governor again requesting compensation. Id.
Plaintiff also petitioned the Governor asking for
assistance. Id. On July 17, 2012, the Governor again
referred plaintiff’s request to the District Governor. Id.
Sometime thereafter, the District Governor responded
that the U.S. Army had taken the property in question
but had not paid rent or other compensation.7 Id.
In September 2012, then-Commander Barry F.
Huggins executed a “Statement of Intent for the
Transfer of COP Millet.” Gov’t Ex. 5. The statement
memorialized the ISAF’s intent to turn over COP
Millet to the Afghan Uniform Police on September 25,
2012. Id. The statement bears Huggins’s signature, in
his capacity as a Colonel in “2/2 SBCT.”8 Id.
In December 2012, plaintiff filed a complaint
with the United States Department of Defense but did
not receive a response. Am. Compl. ¶ 16. On December
12, 2016, plaintiff sent a letter to the District
It is not clear if the District Governor was aware of the
existence of the license agreement.
7

“2/2 SBCT” stands for 2nd Stryker Brigade Combat
Team, 2nd Infantry Division. See Gov’t Ex. 5.
8

23a
Governor, together with a sketch of plaintiff’s land,
asking that the District Governor verify plaintiff’s
ownership. Id. Ex. A. The District Governor responded
by verifying plaintiff’s ownership. Id.
b.

Procedural Background

On August 31, 2016, plaintiff filed a complaint in
this Court. ECF No. 1. On October 24, 2016, defendant
filed a motion for a more definite statement pursuant
to RCFC 12(e). ECF No. 5. On November 10, 2016,
plaintiff filed a response, and on November 21, 2016,
defendant filed a reply. ECF Nos. 6, 7. On February 1,
2017, the Court granted defendant’s motion for a more
definite statement and directed plaintiff to file an
amended complaint. ECF No. 8.
On February 15, 2017, plaintiff filed an amended
complaint. ECF No. 10. The amended complaint
requests $1,400,000.00, plus interest, as just
compensation for the taking of plaintiff’s property.
Am. Compl. ¶ 19. The amended complaint also
requests costs and attorney’s fees. Id.
On April 10, 2017, defendant filed a motion to
dismiss (“Gov’t Mot.”), together with accompanying
exhibits and declarations (“Gov’t Ex. 1–6”). ECF No.
13. On May 11, 2017, plaintiff filed a response (“Pl.’s
Resp.”), and on May 30, 2017, defendant filed a reply
(“Gov’t Reply”). ECF Nos. 14, 15.
On September 19, 2017, the Court heard oral
argument on the defendant’s motion (“9/19/17 Tr.”).
ECF No. 19. That same day, the Court ordered
supplemental briefing “addressing Turney v. United

24a
States, 115 F. Supp. 457 (Ct. Cl. 1953), as well as the
relevant laws of Afghanistan.” ECF No. 17.
On October 24, 2017, defendant filed a
supplemental brief (“Gov’t Supp. Br.”), and on
November 21, 2017, plaintiff filed a response (“Pl.’s
Supp. Br.”). ECF Nos. 23, 24. On December 1, 2017,
plaintiff moved for leave to file additional exhibits
with his supplemental brief. ECF No. 25. On
December 4, 2017, the Court granted the motion to file
additional exhibits. ECF No. 26.
On July 10, 2018, the Court again heard oral
argument on the motion to dismiss (“7/10/18 Tr.”).
ECF No. 32. On May 3, 2019, the case was transferred
to the undersigned. ECF No. 33.
II.

DISCUSSION

The defendant moves to dismiss the amended
complaint for four independent reasons. First,
defendant argues that the United States may not be
held liable for a taking carried out by the ISAF and/or
the government of Afghanistan. Gov’t Mot. at 6–8.
Second, defendant argues that plaintiff’s lawsuit is
barred by the act of state doctrine. Id. at 8–10. Third,
defendant urges dismissal because plaintiff has failed
to “identify the specific property interest alleged to
have been taken by the United States” as required by
RCFC 9(i). Id. at 10–12. Lastly, defendant argues that
plaintiff has not shown he is the owner of the land
identified in the amended complaint. Id. at 12–17. The
Court addresses each of these arguments in turn.

25a
a.

Legal Standard

Rule 12(b)(6) permits a party to file a motion to
dismiss for “failure to state a claim upon which relief
can be granted.” RCFC 12(b)(6). “To survive a motion
to dismiss, a complaint must contain sufficient factual
allegations that, if true, would state a claim to relief
that is plausible on its face.” Athey, 908 F.3d at 705
(internal quotations omitted). “The court must accept
well-pleaded factual allegations as true and must
draw all reasonable inferences in favor of the
claimant.” Id.
The Fifth Amendment provides that “private
property” may not be “taken for public use, without
just compensation.” U.S. Const. amend. V. “To state a
claim for a taking, [plaintiffs] must establish: (1) that
they had a cognizable property interest, and (2) that
their property was taken by the United States for a
public purpose.” Alimanestianu v. United States, 888
F.3d 1374, 1380 (Fed. Cir. 2018).
“Takings claims typically come in two forms: per
se or regulatory.” Id. “To find a per se taking, there
must be either a permanent physical invasion, or a
denial of all economically viable uses of the property.”
Id. (citations omitted). “When the Government
commits a per se taking, it has a categorical duty to
pay just compensation.” Id. “A regulatory taking
involves a restriction on the use of property that [goes]
‘too far.’” Id. (internal quotations omitted)
(modification in original). “To determine whether a
Government action goes ‘too far,’ courts have
traditionally utilized a three-pronged factual inquiry

26a
illuminated by Penn Central Transportation Co. v.
City of New York, which looks to: ‘the character of the
governmental action,’ ‘the extent to which the
regulation has interfered with distinct investmentbacked expectations,’ and ‘[t]he economic impact of the
regulation on the claimant.’” Id. at 1380–81
(modification in original).
The amended complaint appears to allege a per
se taking. See Am. Compl. ¶ 9 (“houses and trees” were
“demolished”). The Court, however, does not need to
decide which legal framework applies at this stage
because none of defendant’s arguments for dismissal
turns on the per se versus regulatory distinction.
b.

The United States May Have Taken
Private Property to Construct
Combat Outpost Millet

The defendant argues the United States is not
liable, because the construction of COP Millet was
carried out by the ISAF together with the government
of Afghanistan. Gov’t Mot. at 6–8. Plaintiff responds
that the United States took his property, as evidenced
by the license between the United States and the
government of Afghanistan. Pl.’s Resp. at 3–5.
In support of its position, defendant invokes
Standard-Vacuum Oil Co. v. United States, 153 F.
Supp. 465 (Ct. Cl. 1957), for the proposition that the
United States cannot be held liable for takings
committed by international military coalitions, even if
the United States is a member of that coalition. Gov’t
Mot. at 7.

27a
Standard-Vacuum dealt with the status of
certain property in Japan after World War II. During
the war, the Japanese government seized the
plaintiff’s property. 153 F. Supp. at 465. After the
Japanese government surrendered, the Supreme
Commander for the Allied Powers established
procedures for individuals like the plaintiff to recover
seized property. Id. at 466. The plaintiff then filed
requests in accordance with those procedures. Id. In
response, the Supreme Commander for the Allied
Powers directed the Japanese government to restore
title to the plaintiff, but temporarily retained
possession of some items that were being used by
occupation forces. Id.
The Court of Claims held that “all action taken
was by the Supreme Commander for the Allied
Powers, not by the United States.” Id. On that basis,
the court held that “[t]here was no taking by the
United States and thus the Government is not liable
under the [F]ifth [A]mendment.” Id. “To hold
otherwise,” the court reasoned, “would be to open the
door to claims of not only citizens but noncitizens alike
for all occupancy by the Allied Powers, thus causing
the United States to bear almost the entire financial
burden, not only of the war but also of the peace.” Id.
at 466–67.
In response, plaintiff relies on Turney, the case
this Court asked the parties to address in
supplemental briefing. Turney dealt with a takings
claim arising out of the disposal of military surplus in
the Philippines after World War II. The facts are
complex; suffice to say that a central question in the

28a
case was whether the United States was responsible
for a taking carried out by the government of the
Philippines when it imposed an embargo on the export
of certain radar equipment. 115 F. Supp. at 463. The
Court of Claims held that the United States was liable,
because “relations, at the time, between our
Government and the Philippine Government, were
close.” Id. As evidence of close relations, the Court of
Claims cited the following facts:
Our armed forces had just liberated the
Philippines from the Japanese. Our
Government had given one hundred
million dollars worth of surplus property
to the Philippines, including the property
at the Leyte Air Depot, and had sold the
property for the account of the Philippine
Government. When we requested that
Government to place an embargo upon
the exportation of any of the property, it,
naturally, readily complied. That put
irresistible
pressure
upon
the
corporation to come to terms with the
United States Army, the terms being
that the radar equipment would be
segregated in charge of the Army and
would not be disposed of until a final
agreement was reached as to its
disposition. The final agreement turned
the property back to the Army in
exchange for a receipt, and with a

29a
reservation of the right to sue for its
value.
Id. at 463–64.
In their supplemental briefs, the parties debate
whether Standard-Vacuum or Turney is more
analogous to this case. See Pl.’s Supp. Br. at 1–4; Gov’t
Supp. Br at 3–6. But neither party analyzes the facts
using the Federal Circuit’s more recent test for
whether the United States is liable for takings
committed by international entities. See Erosion
Victims of Lake Superior Regulation v. United States,
833 F.2d 297, 299 (Fed. Cir. 1987).
“One seeking just compensation from the United
States for actions of an international organization
must show ‘sufficient direct and substantial United
States involvement.’” Id. (quoting Langenegger v.
United States, 756 F.2d 1565, 1571 (Fed. Cir. 1985)).
“That required showing depends on the sum of two
factors: (1) the nature of the United States’ activity,
and (2) the level of benefit the United States has
derived.” Id.
The plaintiff has alleged facts that, if proven,
would show the United States was involved in the
construction of COP Millet to a sufficient degree to
find a Fifth Amendment taking. The United States
was a signatory to the license agreement with the
government of Afghanistan that authorized entry onto
the land in question. Gov’t Ex. 3. And, the United
States derived a clear benefit from that license
agreement; namely, the ability to construct COP
Millet as housing and protection for its forces. See id.

30a
(“COP Millet was intended to be used as a patrol base
from which soldiers could patrol the sector.”).
The defendant’s reliance on Standard-Vacuum
assumes the United States was acting as a mere agent
of the ISAF when it entered into the license
agreement. In fact, however, no mention of the ISAF
appears on the license. Gov’t Ex. 3. Defendant asks the
Court to take notice of the fact that on July 31, 2006,
the ISAF took command of the southern region of
Afghanistan, including Kandahar. Gov’t Mot. at 7
(citing ISAF’s mission in Afghanistan (2001-2014)
(Archived), NATO (updated Sept. 1, 2015), available at
https://www.nato.int/cps/en/natohq/topics_69366.htm
). Assuming the information on the NATO website is
accurate, the ISAF’s leadership role in Kandahar
at the time of the alleged taking does not exclude
the possibility of independent activities undertaken
by the United States. Cf. Progress toward Security
and Stability in Afghanistan, U.S. Dept. of Defense,
at
27
(Jan.
2009),
available
at
https://dod.defense.gov/Portals/1/Documents/pubs/OC
TOBER_1230_FINAL.pdf (“U.S. forces are deployed to
Afghanistan either as part of Operation Enduring
Freedom (OEF), or the [ISAF].”). Drawing all
reasonable inferences in plaintiff’s favor, a reasonable
fact-finder could find that the United States entered
into the licensing agreement on its own behalf, even if
it did so to facilitate the construction of COP Millet by
the ISAF. Consequently, plaintiff has plausibly
alleged that the United States was directly and
substantially involved in the taking of the disputed
land.

31a
In its reply brief, defendant argues that—during
the relevant time period—United States forces in
Kandahar operated exclusively under the direction of
the ISAF. Gov’t Reply at 4; Gov’t Supp. Br. at 4. That
argument may carry the day at summary judgment
but, at this stage, would require fact-finding that is
inappropriate in evaluating a motion to dismiss. See
Athey, 908 F.3d at 705; see also Glob. Freight Sys. Co.
W.L.L. v. United States, 130 Fed. Cl. 780, 789 (Fed. Cl.
2017) (denying a motion to dismiss because the
question of “‘direct and substantial [United States]
involvement’ requires a factual assessment which
cannot be made on the basis of the allegations at this
early stage of litigation”).
The defendant’s other arguments on the
question of the United States’ involvement are
insufficient to justify dismissal. For example,
defendant argues that Afghanistan should be liable for
any taking because COP Millet was constructed “with
the full knowledge and support of the Afghan
government.” Gov’t Mot. at 7. That is not the law. In
Turney, there was no doubt that the United States
took the plaintiff’s property with the full knowledge
and support of the government of the Philippines, but
the Court of Claims nevertheless found the United
States liable. See 115 F. Supp. at 463.
The defendant next argues that “the Afghan
forces stationed at COP Millet outnumbered the ISAF
forces,” and that “Afghanistan “has been [] the sole
occupant [of COP Millet] since September 2012.” Gov’t
Mot. at 7–8. But, “[i]t is [] an accepted principle that it
is not essential for the government to have taken

32a
property for its own use for a taking to be found.”
Langenegger, 756 F.2d at 1570 (citing Hawaii Housing
Authority v. Midkiff, 467 U.S. 229 (1984)). The United
States may not take property and subsequently avoid
its obligation to pay just compensation by placing that
property at someone else’s disposal.
c.

The Act of State Doctrine Does Not
Bar Plaintiff’s Claims

The act of state doctrine bars United States
courts “from declar[ing] invalid the official act of a
foreign sovereign performed within its own territory.”
W.S. Kirkpatrick & Co. v. Envtl. Tectonics Corp., Int’l,
493 U.S. 400, 405 (1990). It is “a consequence of
domestic separation of powers, reflecting ‘the strong
sense of the Judicial Branch that its engagement in
the task of passing on the validity of foreign acts of
state may hinder’ the conduct of foreign affairs[.]” Id.
at 404 (quoting Banco Nacional de Cuba v. Sabbatino,
376 U.S. 398, 423 (1964)). “Under that doctrine, the
courts of one state will not question the validity of
public acts (acts jure imperii) performed by other
sovereigns within their own borders, even when such
courts have jurisdiction over a controversy in which
one of the litigants has standing to challenge those
acts.” Republic of Austria v. Altman, 541 U.S. 677, 700
(2004). The party asserting the applicability of the act
of state doctrine bears the burden of proof. See Alfred
Dunhill of London, Inc. v. Republic of Cuba, 425 U.S.
682, 694–95 (1976); see also Liu v. Republic of China,
892 F.2d 1419, 1432 (9th Cir. 1989).

33a
In Kirkpatrick, the Supreme Court made clear
that the act of state doctrine “is not some vague
doctrine of abstention but a ‘principle of decision
binding on federal and state courts alike.’”
Kirkpatrick, 493 U.S. at 406 (original emphasis)
(quoting Sabbatino, 376 U.S. at 427); see also Kashef
v. BNP Paribas S.A., 2019 WL 2195619, at *4 (2d Cir.
May 22, 2019) (“[The act of state doctrine] is not a
categorical rule of abstention that prohibits courts
from deciding cases or controversies whenever issues
of foreign relations arise.”). “Act of state issues only
arise when a court must decide—that is, when the
outcome of the case turns upon—the effect of official
action by a foreign sovereign.” Kirkpatrick, 493 U.S. at
406 (original emphasis). In addition, even if the
doctrine is technically available, there are instances
when “the policies underlying the act of state doctrine
may not justify its application” and it should not be
invoked. Id. at 409; see also Sea Breeze Salt, Inc. v.
Mitsubishi Corp., 899 F.3d 1064, 1072–73 (9th Cir.
2018) (“The Supreme Court has indicated that even
when the two mandatory elements [of the act of state
doctrine] are satisfied, courts may appropriately look
to additional factors to determine whether application
of the [] doctrine is justified.”). In Sabbatino, the
Supreme Court articulated three possible factors that
may weigh against application of the doctrine:
[T]he greater the degree of codification or
consensus concerning a particular area of
international law, the more appropriate
it is for the judiciary to render decisions
regarding it, since the courts can then
focus on the application of an agreed

34a
principle to circumstances of fact rather
than on the sensitive task of establishing
a principle not inconsistent with the
national interest or with international
justice. It is also evident that some
aspects of international law touch much
more sharply on national nerves than do
others;
the
less
important
the
implications of an issue are for our
foreign relations, the weaker the
justification for exclusivity in the
political branches. The balance of
relevant considerations may also be
shifted if the government which
perpetrated the challenged act of state is
no longer in existence . . . for the political
interest of this country may, as a result,
be measurably altered.
Sabbatino, 376 U.S. at 428 (cleaned up).
The defendant argues that the act of state
doctrine bars the Court from adjudicating plaintiff’s
claim, because finding for plaintiff would require the
Court to invalidate the license agreement, within
which the government of Afghanistan represented
that “it is the rightful and legal owner of [the property]
and has the legal right to enter into this License.”
Gov’t Ex. 3. Defendant contends that, because “a
threshold issue in a Fifth Amendment takings case is
whether a plaintiff owns the land allegedly taken,” for
the Court to rule for plaintiff, it would have to
invalidate the license agreement. Def. Mot. at 9; Def.
Reply at 6.

35a
The plaintiff responds that the act of state
doctrine does not apply, because it “is not seeking to
invalidate the actions of a foreign sovereign.” Pl. Resp.
at 6. In addition, the license is ambiguous as to
whether the Afghan government did warrant it owned
the land. Id.
The Court does not decide whether the act of
state doctrine applies, because, assuming that it does,
defendant has not met its burden to show that the
policies underlying the doctrine justify its application
in this case. See Alfred Dunhill, 425 U.S. at 694–95;
see also Nat’l Coal. Gov’t of Union of Burma v. Unocal,
Inc., 176 F.R.D. 329, 350 (C.D. Cal. 1997) (“When
applying the Sabbatino test, the party asserting the
applicability of the act of state doctrine bears the
burden of proof.”).
Sabbatino’s first factor cautions against
applying the doctrine when there is a high “degree of
codification or consensus concerning a particular area
of international law[,]” so that a court need not focus
“on the sensitive task of establishing a principle not
inconsistent with the national interest or with
international justice.” 376 U.S. at 428 (cleaned up).
Defendant has offered nothing suggesting how
international law and international justice are
implicated by the Court ruling on a takings claim
against the United States by a United States citizen,
albeit on foreign soil.
Similarly, regarding the second Sabbatino
factor, defendant has not shown the importance of the
implications, if any, on United States foreign relations

36a
of potentially finding the license agreement invalid.
Indeed, the fact that the license itself contemplates
that the government of Afghanistan “did not have
authority to issue this License” in the indemnity
clause, Gov’t Ex. 3, and the alleged fact, which the
Court at this stage accepts as true, that the District
Governor verified that plaintiff’s grandfather owned
the land in question, Am. Compl. Ex. A., suggest that
potentially finding the license agreement invalid does
not have meaningful foreign policy implications.
As to the third Sabbatino factor, while the
government of Afghanistan is still in existence, this
alone does not warrant applying the act of state
doctrine. See Unocal, 176 F.R.D. at 353–54 (finding
that, despite the foreign government’s continued
existence, “the balance [of the Sabbatino factors]
weighs against invocation of the act of state doctrine”).
Because defendant has failed to prove that “passing on
the validity” of the license agreement may “hinder the
conduct of foreign affairs” the Court declines to invoke
the act of state doctrine. Kirkpatrick, 493 U.S. at 405
(citations omitted).
d.

Plaintiff has Failed to Plead
Ownership of the Disputed Land

To claim a Fifth Amendment taking, a plaintiff
must show “a cognizable property interest.”
Alimanestianu, 888 F.3d at 1380; see also Acceptance
Ins. Companies, Inc. v. United States, 583 F.3d 849,
854 (Fed. Cir. 2009) (“First, the court determines
whether the claimant has identified a cognizable Fifth
Amendment property interest that is asserted to be

37a
the subject of the taking.”). “The Constitution neither
creates nor defines the scope of property interests
compensable under the Fifth Amendment.” Maritrans
Inc. v. United States, 342 F.3d 1344, 1352 (Fed. Cir.
2003). “Instead, ‘existing rules and understandings’
and ‘background principles’ derived from an
independent source, such as state, federal, or common
law, define the dimensions of the requisite property
rights for purposes of establishing a cognizable
taking.” Id. (quoting Lucas v. S.C. Coastal Council,
505 U.S. 1003, 1030 (1992)). In this case, the
independent source of law that plaintiff invokes is the
law of Afghanistan.
Rule 44.1 of this Court states, “In determining
foreign law, the court may consider any relevant
material or source, including testimony, whether or
not submitted by a party or admissible under the
Federal Rules of Evidence. The court’s determination
must be treated as a ruling on a question of law.”
RCFC 44.1. The purpose of Rule 44.1 is “to make the
process of determining alien law identical with the
method of ascertaining domestic law to the extent that
it is possible to do so.” Animal Sci. Prod., Inc. v. Hebei
Welcome Pharm. Co. Ltd., 138 S. Ct. 1865, 1873 (2018)
(quoting 9A Alan Wright et al., Federal Practice &
Procedure § 2444 (3d ed. updated Apr. 2019))
(describing the identically-worded Rule 44.1 of the
Federal Rules of Civil Procedure).
The defendant contests the validity of plaintiff’s
property interest in two ways. First, defendant
challenges the validity of plaintiff’s proof of ownership.
Gov’t Mot. at 12–15. Second, defendant challenges the

38a
effectiveness of plaintiff’s inheritance agreement with
his siblings. Id. at 15–16. The Court begins with the
first issue, plaintiff’s proof of ownership.
The Court proceeds cautiously, mindful of the
fact that it is “very difficult to determine . . . the
legitimate owners of land and property in
Afghanistan,” and that “for much of Afghanistan’s
recent history people have had no alternative but to
use customary documents to validate land and
property transfers as there has been no functioning
official judicial system.” Conor Foley, A Guide to
Property Law in Afghanistan, Nor. Refugee Council, at
34, 36 (2d ed. 2011).
The Law on Land Management Affairs, revised
by the Taliban in 2000 and again by the government
of Afghanistan in 2008, states that seven types of
documents may serve as proof of land ownership: (1)
documents of a legal court; (2) a decree issued by the
emirate and the prime ministry, if registered; (3) tax
receipts; (4) proof of water rights; (5) customary deeds
from before 1975, witnessed before 1978; (6) registered
title documents; or (7) title documents obtained by
court order. See id. at 34–36; An Introduction to the
Law of Afghanistan, Stan. Afg. Legal Educ. Project, at
117–18 (3d ed. 2011); Liz Alden Wily, Land Rights in
Crisis: Restoring Tenure Security in Afghanistan, Afg.
Res. & Evaluation Unit, at 34, 111–12 (Mar. 2003).
The plaintiff has not proffered any document
that fits into any of the seven categories listed above.
Instead, plaintiff has submitted two letters from the
District Governor: one letter that purports to verify

39a
plaintiff’s grandfather’s ownership of the property,
and another that purports to verify plaintiff’s presentday ownership. Am. Compl. at Ex. A; see also ECF No.
25-1 (supplemental exhibit). A letter from a District
Governor does not constitute proof of land ownership
under the laws of Afghanistan. Consequently, plaintiff
has not shown “a cognizable property interest.”
Alimanestianu, 888 F.3d at 1380.
In an attempt to surmount his lack of legally
effective documentation, plaintiff invokes the
prevalence of informal custom in Afghanistan as the
predominant means of facilitating land transactions.
Pl.’s Resp. at 9–10. It appears, based on the Court’s
research, that plaintiff is correct that “formal
registration and titling has never been widespread.”
Erica Gaston & Lillian Dang, Addressing Land
Conflict in Afghanistan, U.S. Inst. of Peace, Special
Rep. 372, at 7 (June 2015); see also Yohannes
Gebremedhin, Land Tenure and Administration in
Rural Afghanistan: Legal Aspects, Terra Inst., at 26
(Sept. 2007). Nevertheless, “for the most part Afghan
law only recognizes land ownership based on formal
documents.” Gaston & Dang, supra, at 7. The fact that
Afghan property law is rarely followed in certain
communities puts plaintiff in an unfortunate bind, but
not the sort of bind this Court is empowered to resolve
by disregarding those laws entirely.
Because plaintiff has not shown a cognizable
property interest, the Court does not need to address
defendant’s argument that the amended complaint
fails to meet the specific pleading requirements of
RCFC 9(i), i.e., that a party “must identify the specific

40a
property interest alleged to have been taken.” The
Court also does not need to address whether plaintiff’s
inheritance agreement with his siblings was valid,
even though the siblings did not submit their
agreement to a court for approval.
III.

CONCLUSION

For the above stated reasons, the following is hereby
ordered:
1. Defendant’s motion to dismiss is GRANTED.
2.
Plaintiff’s
DISMISSED.

amended

complaint

is

The Clerk is directed to enter judgment accordingly.
No costs.
IT IS SO ORDERED.
s/ Bohdan A. Futey
Bohdan A. Futey
Senior Judge

41a
ENTERED JULY 11, 2019
IN THE UNITED STATES COURT OF
FEDERAL CLAIMS
No. 16-1090 L

TEMOR S. SHARIFI
Plaintiff
v.

JUDGMENT

THE UNITED STATES
Defendant
Pursuant to the court’s Opinion, filed July 11,
2019, granting defendant’s motion to dismiss,
IT IS ORDERED AND ADJUDGED this date,
pursuant to Rule 58, that plaintiff’s complaint is
dismissed. No costs.
Lisa L. Reyes
Clerk of Court
By: s/Anthony Curry
Deputy Clerk
NOTE: As to appeal to the United States Court of
Appeals for the Federal Circuit, 60 days from this
date, see RCFC 58.1, re number of copies and listing
of all plaintiffs. Filing fee is $505.00.

